Office of
Inspector General
                    Semiannual Report to the Congress
                             October 1, 2013
                                 through
                             March 31, 2014


                                Number 50

                                April 9, 2014




                      FARM CREDIT ADMINISTRATION
Farm Credit Administration                                             Office of Inspector General
                                                                       1501 Farm Credit Drive
                                                                       McLean, Virginia 22102-5090




April 9, 2014


The Honorable Jill Long Thompson, Board Chair and Chief Executive Officer
The Honorable Kenneth A. Spearman, Board Member
The Honorable Leland A. Strom, Board Member
Farm Credit Administration
1501 Farm Credit Drive
McLean, Virginia 22102-5090

Dear Board Chair Long Thompson and FCA Board Members Spearman and Strom:

Enclosed is the semiannual report on the activities of the Farm Credit Administration’s (FCA or
Agency) Office of Inspector General (OIG) for the period October 1, 2013 through March 31, 2014.
This is the fiftieth report since the establishment of the OIG on January 22, 1989.

I submit this report in accordance with the Inspector General Act of 1978, as amended (IG Act).
Section 5(b) of the IG Act requires that the FCA Board send this report to the appropriate
Congressional committees and subcommittees within 30 days after the date of this transmittal,
accompanied by management’s report on the status of audit, inspection, and/or evaluation action
items.

This reporting period the OIG has experienced some personnel transitions. We welcomed
Katherine Gallo, an experienced attorney with over 20 years of experience in Inspector General
matters, as the Counsel to the Inspector General. One of our senior auditors took another position
and we are actively seeking to fill the position. With a fully staffed OIG, and together with the FCA
Board and management, it is my expectation and my goal to continue to improve the high quality of
Agency programs and operations.

The OIG contracted with the Bureau of Fiscal Service for Brown & Company CPAs, PLLC to
perform the audit of FCA’s financial statements for fiscal year 2013. This audit was completed
during this reporting period and resulted in an unmodified opinion. Please refer to page 3 for further
information.

Also, the OIG’s annual evaluation of the Agency’s compliance with the Federal Information Security
Management Act was completed. This annual evaluation was conducted by the OIG’s Senior
Information Technology Auditor and the report was issued on November 19, 2013. There were two
action items as a result of this evaluation. Please refer to page 3 for further information.
                                                                                                      2

During this reporting period, the OIG initiated an audit on the Agency’s Training and Conference
Expenses to determine the effectiveness of controls related to training, conferences, and related
travel expenses. Please Refer to page 3 for further information.

One open action item from an audit issued September 23, 2013, was closed during this reporting
period. Therefore, there are no agreed-upon action items open at the end of this reporting period.

The OIG continues to send surveys to the Farm Credit System institutions following regulatory safety
and soundness examinations and other interactions with the FCA Office of Examination (OE). The
results of the surveys, evaluating the quality of the examination work and OE interactions, are
summarized without attribution on a quarterly basis. The FCA Board and OE find this to be a
valuable measuring tool.

I would like to acknowledge the effective efforts of the OIG staff in diplomatically leading Agency
management to focus on significant program issues, as well as FCA management’s positive and
timely reaction and improvement. I look forward to continuing a positive and effective relationship
between the OIG and the FCA Board, a partnership striving to continuously strengthen FCA
operations.

If you have any questions, please call me at 703-883-4036 or 4030.

Respectfully,




Elizabeth M. Dean
Inspector General

Enclosure
                              Contents




EXECUTIVE SUMMARY…………………………………………………………….……………… 1

BACKGROUND……………………………………………………………………………………… 2
  FARM CREDIT ADMINISTRATION………………………………………………………………… 2
  FARM CREDIT SYSTEM…………………………………………………………………………… 2

AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED…..………………………….. 3
  FY 2013 INDEPENDENT FINANCIAL STATEMENT AUDIT OF FCA …………………….............. 3
  FY 2013 FEDERAL INFORMATION SECURITY MANAGEMENT ACT EVALUATION …………… 3

AUDITS, INSPECTIONS, AND EVALUATIONS IN PROGRESS….………..………………..... 3
  TRAINING AND CONFERENCE EXPENSES ……………………………………………….............. 3

STATUS OF UNIMPLEMENTED RECOMMENDATIONS….………..…………………………. 4

MANAGEMENT ADVISORY REPORTS………………………………………………………….. 4

INVESTIGATIONS…………………………………………………………………………………... 4

LEGISLATION AND REGULATIONS…………………………………………………………….. 5

OTHER ACTIVITIES………………………………………………………………………………...                              7
  QUARTERLY SURVEY OF FARM CREDIT SYSTEM INSTITUTIONS……………………………               7
  STAFF PARTICIPATION IN ACTIVITIES WITHIN THE INSPECTOR GENERAL COMMUNITY….   7
  STAFF PARTICIPATION IN AGENCY ORGANIZATIONS…………………………………………                  7
  STAFF DEVELOPMENT…………………………………………………………………………...                             7

ANNEX……………………………………………………………………………………………..... 8

APPENDICES
  APPENDIX A – INDEX OF REPORTING REQUIREMENTS……………………………………...                 9
  APPENDIX B – AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED………………....      10
  APPENDIX C – REPORTS WITH QUESTIONED COSTS………………………………………..                  11
  APPENDIX D – REPORTS WITH RECOMMENDATIONS THAT FUNDS
                 BE PUT TO BETTER USE…………………………………………………….                     12
  APPENDIX E – PEER REVIEWS CONDUCTED OF THIS OFFICE………………………………               13
  APPENDIX F – PEER REVIEWS CONDUCTED BY THIS OFFICE………………………….……              14
  APPENDIX G – FCA ORGANIZATIONAL CHART………………………..………………….……                   15
  APPENDIX H – OFFICE OF INSPECTOR GENERAL ORGANIZATIONAL CHART……………...        16
  APPENDIX I – GLOSSARY OF TERMS ………………………………………………………………..                    17
                           Executive Summary




This Semiannual Report to the Congress summarizes the activities and accomplishments of the
Farm Credit Administration’s (FCA or Agency) Office of Inspector General (OIG) for the period
October 1, 2013 through March 31, 2014. The OIG’s efforts were directed toward implementing
the OIG’s fiscal year (FY) 2014 strategic and operating plan and budget; performing audits,
inspections, and evaluations of FCA programs and operations; conducting investigations, as
necessary; independently and confidentially surveying Farm Credit System (FCS or System)
institutions regarding the effectiveness of the Agency’s examination function and examiners; and
providing objective, independent reporting and counsel to the FCA Board on FCA programs and
operations.

The OIG contracted with the Bureau of Fiscal Service (BFS) for Brown & Company CPAs, PLLC
(Brown & Co.) to perform the audit of FCA’s financial statements for FY 2013. This audit
resulted in an unmodified opinion. See page 3 for further information.

Also, the OIG issued an evaluation report on the Agency’s compliance with the Federal
Information Security Management Act (FISMA). There were two agreed-upon actions as a
result of this evaluation. The evaluation was conducted by the OIG’s Senior Information
Technology (IT) Auditor. See page 3 for further information.

Additionally, the OIG issued two quarterly reports to the Chief Examiner and FCA Board on
results of OIG surveys of the System institutions regarding the examination function and the
examiners. These reports were for the quarters ended September 30 and December 31, 2013.

The OIG maintains five positions: the Inspector General, Counsel to the Inspector General, a
Senior Auditor, a Senior IT Auditor, and an Administrative Assistant. Appendix G and
Appendix H reflect the organizational structure of FCA and the OIG, respectively. The Senior
Auditor position is vacant at this time as we actively seek to fill the position.




                                               1            FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                      OCTOBER 1, 2013 – MARCH 31, 2014
                                  Background




Farm Credit Administration

The FCA is an independent Federal agency of the United States government responsible for the
regulation and examination of Farm Credit System institutions chartered under the Farm Credit
Act of 1971, as amended (Farm Credit Act). The FCA is also a “designated Federal entity”
within the meaning of the Inspector General Act of 1978, as amended (IG Act).

As a non-appropriated agency, FCA funds its expenses primarily through assessments to the
institutions it regulates. The Agency’s FY 2014 budget is $63,900,000. Assessments by FCA to
FCS institutions for FY 2014 are $50,000,000 with other sources of funding totaling
$13,900,000. The OIG’s FY 2014 budget is $1,264,912.

At the end of this reporting period FCA had 274 employees, about half of which are examiners
located in five field offices. At the end of the prior semiannual reporting period the Agency had
277 employees.

Farm Credit System

The FCS is a Government-sponsored enterprise comprised of 4 Farm Credit banks and 80
lending associations, as of March 31, 2014, in all 50 states and Puerto Rico that primarily make
loans to agriculture. The System raises funds by selling securities in the national and
international money markets through its special purpose entity, the Federal Farm Credit Banks
Funding Corporation. These securities are not guaranteed by the U.S. Government.

The Federal Agricultural Mortgage Corporation (Farmer Mac), also a part of the FCS, is
chartered by the Federal government to provide a secondary market for agricultural mortgage
loans. Farmer Mac is publicly traded and issues its own debt securities.

Additionally, there are four active service corporations organized under the Farm Credit Act that
provide services to FCS entities and eligible borrowers.




                                                 2            FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                        OCTOBER 1, 2013 – MARCH 31, 2014
               Audits, Inspections, and Evaluations




REPORTS ISSUED
The OIG conducts all audits in accordance with Government Auditing Standards issued by the
Comptroller General of the United States for audits of Federal organizations, programs,
activities, and functions. Inspections and evaluations are conducted in accordance with the
Council of the Inspectors General on Integrity and Efficiency (CIGIE) Quality Standards for
Inspections. Copies of most OIG reports are available on the OIG web site at
www.fca.gov/home/inspector.html, or by contacting the OIG at (703) 883-4030, or by e-mail at
ig_information@fca.gov.


FY 2013 Independent Financial Statement Audit of FCA
The Accountability of Tax Dollars Act of 2002 requires FCA and certain other agencies to submit
to Congress and the Office of Management and Budget (OMB) an audited financial statement
each fiscal year.

In continuing to assist the Agency in meeting these requirements, the OIG contracted with the
Bureau of Fiscal Service for Brown & Co. to perform the audit of FCA’s financial statements for
FY 2013. The audit resulted in an unmodified opinion, was issued November 20, 2013, and
presented to the FCA Board on January 6, 2014.


FY 2013 Federal Information Security Management Act Evaluation
The evaluation of the Agency’s compliance with FISMA for FY 2013 is performed by the OIG’s
Senior IT Auditor, using guidelines established by FISMA, OMB, and the National Institute of
Standards and Technology. Although this evaluation revealed no significant deficiencies, the
Agency agreed to make improvements in two areas. This report was issued on November 19,
2013.


AUDITS AND EVALUATIONS IN PROCESS
FCA’s Training and Conference Expenses
The audit objective is to determine the effectiveness of controls related to training, conferences,
and related travel expenses.




                                                 3             FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                         OCTOBER 1, 2013 – MARCH 31, 2014
STATUS OF UNIMPLEMENTED RECOMMENDATIONS



      Audit, Inspection, and Evaluation Agreed-Upon Actions and
                           Recommendations

                                            Open During      Final Management
                                                                                         Open on
         Report             Issued          this 6-Month     Actions During this
                                                                                         4/1/2014
                                               Period              Period


   Student Loan
                           9/23/2013                1                  1                     0
   Repayment Program


                  Total                             1                  1                     0




MANAGEMENT ADVISORY REPORT ISSUED
The OIG Management Advisory Reports are designed to be a quick mechanism to offer the
Agency head and management suggestions on ways to strengthen Agency operations. The
OIG continued to provide information and best practices related to an advisory issued in a prior
reporting period on FCA’s Use of Social Media.


INVESTIGATIONS
Two allegations were received during the reporting period. One alleged abuse of resources, but
was not substantiated and the matter was forwarded to management. The second complaint
alleged inappropriate personnel practices. Following OIG’s initial review, OIG requested
investigative assistance from the National Credit Union Administration (NCUA) OIG because of
a conflict of interest. The NCUA OIG reviewed and subsequently issued a Management
Implication Report that found no violations of regulations or policy, but noted concerns with
internal operations.

OIG Hotline calls and emails dealing with borrower complaints concerning FCS institutions and
other FCA program issues were referred to the FCA office or other Federal agency responsible
for reviewing such matters.




                                                4            FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                       OCTOBER 1, 2013 – MARCH 31, 2014
                    Legislation and Regulations



In furtherance of the OIG’s mandate to review existing and proposed legislation and regulations,
the Acting Inspector General or the Inspector General attends joint briefings of the FCA Board
on regulations at the proposed and final stages. The following were reviewed:

   Legislation

      1) H.R. 1163, Federal Information Security Amendments Act of 2013
      2) H.R. 1468, Strengthening and Enhancing Cybersecurity by Using Research,
         Education, Information, and Technology Act of 2013 (SECURE IT)
      3) H.R. 3345, Stop Unworthy Spending Act (SUSPEND Act)
      4) H.R. 2061/S. 994, Digital Accountability and Transparency Act of 2014
      5) H.R. 3032, Executive Cyberspace Coordination Act of 2013
      6) S. 1360, Improper Payments Agency Cooperation Enhancement Act of 2013
      7) H.R. 1211, Freedom of Information Act Oversight and Implementation Act of 2014
      8) S. 1953, Oversight Workforce Improvement Act of 2014
      9) H.R. 314, Inspector General Improvement Act of 2013



   Proposed Rule
     10) Federal Agricultural Mortgage Corporation Governance; Farmer Mac Corporate
         Governance and Standards of Conduct
     11) Joint Notice of Proposed Rule Making, Loans in Areas Having Special Flood Hazards


   Final Rule
     12) Releasing Information; General Provisions; Accounting and Reporting Requirements;
         Reports of Accounts and Exposures, 12 CFR Parts 602, 618, and 612
     13) Final Rule that Amends Liquidity Management Regulations for the Federal
         Agricultural Mortgage Corporation (Farmer Mac)

     14) Final Interim Rule Repealing Non-binding, Advisory Votes on Compensation for CEO
         and Senior Officers of System Banks or Associations, 12 CFR Parts 611, 620, and
         630




                                               5             FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                       OCTOBER 1, 2013 – MARCH 31, 2014
Regulations
 15) Spring 2014 Abstract of the Unified Agenda of Federal Regulatory and Deregulatory
     Actions and Spring 2014 Regulatory Projects Plan
 16) To amend FCA’s Standards of Conduct and Referral of Known or Suspected
     Criminal Violations; Standards of Conduct, 12 CFR Part 612, Subpart A



Informational Memorandum
 17) Recent Consumer Financial Protection Bureau Actions
 18) Maximum Farm Credit System Bank Director Compensation for 2014
 19) Guidelines for Requesting Certificates of Good Standing, Authenticity, and/or Merger
     or Consolidation
 20) Guidance on Homeownership Counseling Requirements


Other
 21) Proposed, Revised Equal Employment Opportunity Commission, Management
     Directive 110




                                         6            FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                OCTOBER 1, 2013 – MARCH 31, 2014
                              Other Activities



Quarterly Survey of Farm Credit System Institutions
The OIG administers an ongoing survey of FCS institutions regarding the quality and
consistency of the Agency’s examination function and examiners. The OIG issues a quarterly
report and, at the end of each FY, a summary report on the surveys’ results to the Chief
Examiner and the FCA Board.

During this 6-month period, the OIG sent surveys to the Audit Committee Chairmen, Chief
Executive Officers, and Boards of 28 FCS Institutions. Quarterly reports for the 3-month periods
ended September 30 and December 31, 2013, were issued by the OIG to the Chief Examiner
and the FCA Board. A summary FY 2013 report was also issued.

Staff Participation in Activities within the Inspector General Community
OIG staff members are encouraged to take part in organizations that contribute to the mission of
the Inspectors General community, as well as their individual professional development. Most
staff members are actively involved in one or more professional organizations, as well as
activities within the Council of the Inspectors General on Integrity and Efficiency.

The Inspector General is a member of CIGIE, which provides a forum for IGs from various
government agencies to discuss government-wide issues and shared concerns. Collectively, the
members of CIGIE work toward improving government programs and operations. The IG also
serves as a member of CIGIE’s Legislation Committee and participates as a member of CIGIE’s
Inspection and Evaluation Committee, and is the incoming Chair of the Small IG group. The
Counsel to the Inspector General is active in the Council of Counsels and the Directors of
Investigation.

The OIG Senior IT Auditor attends Federal Audit Executive Committee (FAEC) meetings and
conferences and is actively involved in the IT Subcommittee of the FAEC. The Senior IT Auditor
also attends local ISACA (formerly known as Information Security and Control Association)
meetings.

Staff Participation in Agency Organizations
OIG employees are active on Agency workgroups and task forces, as appropriate.

Staff Development
OIG employees continually seek ways to improve skills and become knowledgeable in the
initiatives of the community of Inspectors General. Audit and legal staff must meet continuing
education requirements. Individual development plans are used to identify long and short-term
career goals along with specific training and developmental needs. These plans are geared to
enhance individual skills in the performance of official duties and meet the criteria needed to
achieve OIG performance goals and objectives.


                                               7             FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                       OCTOBER 1, 2013 – MARCH 31, 2014
                                        Annex




This annex is provided in accordance with the National Defense Authorization Act for FY 2008.

This referenced statute requires all Inspectors General appointed under the IG Act to include an
annex to their semiannual reports as follows:

    1) listing all contract audit reports issued during the reporting period containing significant
       audit findings;

    2) briefly describing the significant audit findings in the report; and

    3) specifying the amounts of costs identified in the report as unsupported, questioned, or
       disallowed.

Significant audit findings are defined as unsupported, questioned, or disallowed costs in excess
of $10,000,000, or other findings that the Inspector General determines to be significant. It
defines contracts as a contract, an order placed under a task or delivery order contract, or a
subcontract.

No contract audit reports meeting these criteria were issued on behalf of the OIG during this
reporting period.




                                                 8             FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                         OCTOBER 1, 2013 – MARCH 31, 2014
                                Appendixes



APPENDIX A

                     Index of Reporting Requirements


 SECTION                                          TITLE                                        Page

    4(a)(2)      Review of legislation and regulations                                           5-6

    5(a)(1)      Significant problems, abuses, and deficiencies                                  None

    5(a)(2)      Recommendations for corrective action                                             4

    5(a)(3)      Prior recommendations not yet implemented                                       None

    5(a)(4)      Matters referred to prosecutive authorities                                     None

    5(a)(5)      Information unreasonably refused or not provided                                None

    5(a)(6)      List of reports issued                                                           10

    5(a)(7)      Summaries of significant reports                                                  3

    5(a)(8)      Management decisions with questioned costs                                       11

                 Management decisions on recommendations that funds be put
    5(a)(9)                                                                                       12
                 to better use

    5(a)(10)     Prior audit reports unresolved                                                  None

    5(a)(11)     Significant revised management decisions                                        None

                 Significant management decisions with which the Inspector
    5(a)(12)                                                                                     None
                 General disagreed

    5(a)(13)     Compliance of Agency financial management system                                  3

  5(a)(14)(15)   Peer reviews conducted of this OIG                                               13

    5(a)(16)     Peer reviews conducted by this OIG                                               14

                 FY 2008 National Defense Authorization Act Citation and
      845                                                                                          8
                 Requirement



                                              9                FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                         OCTOBER 1, 2013 – MARCH 31, 2014
APPENDIX B




              Audit, Inspection, and Evaluation Reports Issued

                                                                               Recommendations
                               Number of Agreed Upon
          Report                                        Questioned Costs      That Funds Be Put to
                              Actions/Recommendations
                                                                                   Better Use


Audit of the FCA Financial
                                         0                    $0                        $0
Statement – 2013

Evaluation of the Federal
Information Security                     0                    $0                        $0
Management Act – 2013

                      Total              0                    $0                        $0




                                                10          FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                      OCTOBER 1, 2013 – MARCH 31, 2014
APPENDIX C




                              Reports with Questioned Costs

                                                                Number                     Dollar Value

                                                                     Recom-        Questioned      Unsupported
                                                          Reports
                                                                    mendations       Costs            Costs

A. For which no management decision has been
   made by the commencement of the reporting                0            0             $0               $0
   period.

B. Which were issued during the reporting
   period.
                                                            0            0             $0               $0

                                   Subtotals (A+B)          0            0             $0               $0

C. For which a management decision was made
   during the reporting period.
                                                            0            0             $0               $0

   (i) dollar value of disallowed costs                     0            0             $0               $0

   (ii) dollar value of costs not disallowed                0            0             $0               $0

D. For which no management decision has been
   made by the end of the reporting period.
                                                            0            0             $0               $0

E. For which no management decision was
   made within six months of issuance.
                                                            0            0             $0               $0




                                                     11             FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                              OCTOBER 1, 2013 – MARCH 31, 2014
APPENDIX D




              Reports with Recommendations that Funds
                         be Put to Better Use

                                                                Number of
                                                    Number of
                                                                 Recom-          Dollar Value
                                                     Reports
                                                                mendations

A. For which no management decision has been
   made by the commencement of the reporting           0              0              $0
   period.

B. Which were issued during the reporting period.      0              0              $0

                                  Subtotals (A+B)      0              0              $0

C. For which a management decision was made
   during the reporting period.
                                                       0              0              $0

   (i) dollar value of recommendations that were
       agreed to by management
                                                       0              0              $0

      - based on proposed management action            0              0              $0

      - based on proposed legislative action           0              0              $0

  (ii) dollar value of recommendations that were
       not agreed to by management
                                                       0              0              $0

D. For which no management decision has been
   made by the end of the reporting period.
                                                       0              0              $0

E. For which no management decision was
   made within six months of issuance.
                                                       0              0              $0




                                               12          FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                     OCTOBER 1, 2013 – MARCH 31, 2014
APPENDIX E




                       Peer Reviews Conducted of this Office

                                                                   Function          Peer Review
          Peer Review Performed By          Date of Report
                                                                   Reviewed            Rating


Architect of the Capitol
                                            June 26, 2013            Audit               Pass
Office of Inspector General



U.S. Securities and Exchange Commission
                                          December 26, 2007      Investigations          Pass
Office of Inspector General




                                           13            FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                   OCTOBER 1, 2013 – MARCH 31, 2014
APPENDIX F




                     Peer Reviews Conducted by this Office

                                                                Function          Peer Review
               Peer Review Of          Date of Report
                                                                Reviewed            Rating



Consumer Product Safety Commission
                                       May 23, 2011               Audit               Pass
Office of Inspector General



U.S. International Trade Commission
                                      January 16, 2013            Audit               Pass
Office of Inspector General




                                      14              FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                OCTOBER 1, 2013 – MARCH 31, 2014
         APPENDIX G


                                                 FCA ORGANIZATIONAL CHART



                                                       Farm Credit Administration Board                           Office of
                                                                                                             Inspector General1
                                                                           Board
                                                         Jill Long Thompson, Board Chair
                                                         Kenneth A. Spearman, Member                          Elizabeth M. Dean
                                                              Leland A. Strom, Member


                         Secretary to the
                             Board
                                                                                                         Office of
                          Dale L. Aultman                                                            Congressional and
                                                                                                       Public Affairs

                       Equal Employment                                                                  Michael A. Stokke
                         and Inclusion                       Office of the Chairman
                           Director                                 and CEO

                           Thais Burlew                         Jill Long Thompson                       Office of
                                                                                                     Secondary Market
                                                                                                        Oversight2
                       Designated Agency
                         Ethics Official                                                                   Laurie A. Rea

                       Wendy R. Laguarda




                                                                Office of the Chief
                                                                Operating Officer

                                                                 William J. Hoffman




      Office of Management                  Office of Examination                    Office of                                Office of
             Services                                                             Regulatory Policy                        General Counsel3
                                             S. Robert Coleman
         Stephen G. Smith                                                            Gary K. Van Meter                     Charles R. Rawls




1
    The Dodd-Frank Wall Street and Consumer Protection Act, Public Law 111-203, amended the Inspector General Act, 5 U.S.C. App 3,
    changing the meaning of “head of the designated Federal entity.” The effect is that the Inspector General now reports to the FCA Board.
    Prior to the amendment, the FCA Chairman was the “head of the designated Federal entity” under the IG Act and the IG reported to the
    Chairman.
2
    Reports to the Board for policy and to the CEO for administration.
3
    Maintains a confidential advisory relationship with each of the Board members.




                                                                           15                   FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                                                          OCTOBER 1, 2013 – MARCH 31, 2014
APPENDIX H




  Office of Inspector General Organizational Chart



                           Inspector General
                             Elizabeth Dean


              Administrative
                Assistant
                  Debra Miller


   Counsel to the         Senior Information
                                                                       Auditor
 Inspector General        Technology Auditor
                                                                       Vacant
    Kathy Gallo                Tammy Rapp




                          Elizabeth M. Dean, Inspector General                March 2014




                                        16             FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                 OCTOBER 1, 2013 – MARCH 31, 2014
APPENDIX I



                                  Glossary of Terms


Agency            – Farm Credit Administration
BFS               – Bureau of Fiscal Service
Brown & Co.       – Brown & Company CPAs, PLLC
CIGIE             – Council of the Inspectors General on Integrity and Efficiency
Farm Credit Act   – Farm Credit Act of 1971, as amended
Farmer Mac        – Federal Agricultural Mortgage Corporation
FCA               – Farm Credit Administration
FCS               – Farm Credit System
FISMA             – Federal Information Security Management Act
FY                – Fiscal Year
H.R.              – House of Representatives
IG                – Inspector General
IG Act            – Inspector General Act of 1978, as amended
ISACA             – Information Security and Control Association
IT                – Information Technology
NCUA              – National Credit Union Administration
OE                – Office of Examination
OIG               – Office of Inspector General
OMB               – Office of Management and Budget
Pub. L.           – Public Law
S.                – Senate
System            – Farm Credit System




                                               17          FCA OIG SEMIANNUAL REPORT TO CONGRESS
                                                                     OCTOBER 1, 2013 – MARCH 31, 2014
        R E P O R T
Fraud     |   Waste    |   Abuse   |   Mismanagement




        FARM CREDIT ADMINISTRATION
        OFFICE OF INSPECTOR GENERAL

• Phone: Toll Free (800) 437-7322; (703) 883-4316

• Fax:        (703) 883-4059

• E-mail: fca-ig-hotline@rcn.com

• Mail:       Farm Credit Administration
              Office of Inspector General
              1501 Farm Credit Drive
              McLean, VA 22102-5090
